20=1447
FILED
APR 0 1 2021

IN THE

Supreme Court of the United States
Kenneth R. Kunzer,
Petitioner,
v.

Lisa A. Hiniker, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI
Kenneth R. Kunzer, Pro Se
9350 Lake Road
Woodbury, MN 55125
Cell Phone: 651-366-1369

Kenk2764@msn.com
April 7, 2021

received
APR 13 2021

igllcSSSIl

QUESTIONS
Under the direction of Albert P Herschler the
law firm of Meier, Kennedy and Quinn created and
executed the Last Will and Testament of Mr.
Herschler dated April 5th, 1960, and Codicil dated
January 16th, 1961, which included “Trust A and
Trust B”. On April 5th, 1960, U.S. bank, [f /k/a ‘First
Trust National Association”], became trustee of Trust
A and Trust B. On the death of Mr. Herschler, Helen
A. Herschler became beneficiary of Trust A and B.
Mrs. Herschler passes away on Nov. 14, 1994.
Pursuant to the January 16th, 1961 Codicil of Albert
P. Herschler, at First (d) “This trust shall terminate
upon the death of the last survivor of my said wife.
The above Codicil is referring to Trust B. The last
survivors of Mrs. Herschler and legal beneficiaries of
Trust B are Audrey Heriot, Gary C. Kunzer, William
P. Kunzer, Richard A. Kunzer and Kenneth R.
Kunzer. Pet.App. 8a-9a. In violation of the above
Codicil U.S. Bank terminated Trust B and gave the
assets to St. Paul’s on the Hill Episcopal Church on
June 27th, 1995. Pursuant to the Last Will of Mr.
Herschler, Fifth (f) “The trust estate which my said
wife disclaims or any portion of the trust estate
remaining on the death of my said wife, which my said
wife shall have failed to dispose of in an exercise of the
power of appointment hereinbefore conferred upon her,
shall be added to and become part of “Trust B” [A]s of
June 27th, 1995, U.S. Bank can no longer add Trust A

ii

to Trust B. U.S. Bank terminated Trust A on
September 3, 1997.
On May 8, 1998, in Washington County, Minnesota,
probate court, U.S. Bank admitted that they have
kept the assets of Trust A. Pet.App. 14a-15a.
On July 14, 2003, Petitioner filed a petition by heir
of testator seeking declaration of resulting trust on
failure of express testament trust in Minnesota,
Ramsey County District Court. The above petition
was filed within six years pursuant to Minn. Stat.
501C.1005. The above petition was to make U.S. Bank
account for the assets of Trust A.
On October 10th, 2003, U.S. Bank had ex parte
communications with the above court. Pet.App. 16a
Order n. 1. U.S. Bank lied and said they have
“distributed all assets of Trust A”. Pet.App. 16a Fact
n. 5. On October 13, 2003, U.S. Bank obtained and
order denying petitioner and legal heirs a hearing and
access to the court. Petitioner’s petition for a resulting
trust is still on file in Ramsey Co. Dist. Ct. and yet to
be heard. Pet.App. 16a Order n. 2.
The foregoing raises the following questions.
1. Why did Magistrate Judge Menendez refuse to
look at the Last Will and Testament and Codicil of
Albert P. Herschler?
2. Why did Judge Menendez refuse to look at the
Ramsey County District Court June 27th, 1995
Order, terminating Trust B?
iii

3. Why did Judge Menendez refuse to look at the
Ramsey County District Court Sept. 3rd, 1997
Order, terminating Trust A?
4. Why did Judge Menendez refuse to look at the
Wash. Co. Minn. Probate Ct., May 8th, 1998 Order,
in which U.S. Bank admitted they did not honor
the Court approved Settlement Agreement and
kept the assets of Trust A? Pet.App. 14a-15a.
5. Why did U.S. Bank never file a final account of the
Estate of Helen A. Herschler in Wash. Co. Probate
Ct.?
6. Why did U.S. Bank never file a proper receipt, in
Ramsey Co. Dist. Ct., showing the distribution of
the remainder of Trust A to Saint Paul’s Church?
7. Pursuant to the Last Will of Albert P. Herschler
can Trust A be added to Trust B after Trust B was
terminated on June 27, 1995?
8. Who did U.S. Bank distribute the remainder of
Trust A assets too?
9. Why did Judge Menendez use the null and void ex
parte October 13, 2003 Order, in her report and
recommendation?
10. Did any of the above-named courts have personal
and subject matter jurisdiction over petitioner and
the other legal heirs?
11. Are defendants employed by U.S. Bank continuing
to buy securities across state fines with Trust A
assets in violation of 18 U.S.C. 1962(a) and Minn.
Stat. 609.903 Subd. 1, (1)(3)?

iv

PARTIES TO THE PROCEEDING AND
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT
The parties to the proceedings include the
Petitioner Kenneth R. Kunzer, for himself and all
others similarly situated. The Respondents are not on
file as being served the summons and complaint in
United States District Court District of Minnesota,
case no. 20-0882 (JRT/KMM), and are not parties.
• Lisa A. Hiniker, an individual predicate
actor in schemes violating federal laws
providing that fraud and embezzlement are
malum in se offenses, an employee of U.S.
Bank and as Trustee of Trust A & B Under
the Last Will and Testament of Albert P.
Herschler
• U.S. Bank, an enterprise affecting interstate
commerce, and 18 U.S.C. 1961(4)
association-in-fact
• Charles M. Bichler, Esq., individual
predicate actor in schemes violating federal
laws providing that fraud and grand larceny
are malum in se offences, an employee of
Meier, Kennedy & Quinn
. • John C. Gunderson, Esq.; individual
predicate actor in schemes violating federal
laws providing that attempted extortion are
malum in se offenses, an employee of Meier,
Kennedy & Quinn

Meier, Kennedy & Quinn, Chartered, an
enterprise affecting interstate commerce,
and 18 U.S.C. 1961(4) association-in-fact
Denise Suzanne Rahne, Esq.; individually
and employee of Robins Kaplan LLP
Ena M. Kovacevic, Esq.; individually and
employee of Robins Kaplan LLP
Robins Kaplan LLP, an enterprise affecting
interstate commerce, 18 U.S.C. 1964(4)
association-in-fact
Michael D. Johnson, Esq.; individual
predicate actor in schemes violating federal
laws providing that attempted extortion are
malum in se offenses, employee of Lawgix
Lawyers, LLC
Lawgix Lawyers, LLC, an enterprise
affecting interstate commerce, 18 U.S.C.
1964(4) association-in-fact
LIST OF ALL PROCEEDINGS
DIRECTLY RELATED
In the Matter of Trust B Under the Will of
Albert P. Herschler, Deceased, No. CX-67-355788
Minn. Ramsey Co. Dist. Ct., Findings of Fact and
Order Allowing Accounts Terminating Trust B and
Discharging Trustee entered June 27th, 1995.
Estate of Helen A. Herschler, Deceased, No. PX95-400308, Minn. Wash. Co. Probate Ct., Order for
Judgment entered July 11, 1997.
vi

Estate of Helen A. Herschler, Deceased, No. PX95-400308, Minn. Wash. Co. Probate Ct., Settlement
Agreement and Mutual Releases entered July 21,
1997.
In the Matter of Trust, A Under the Will of
Albert P. Herschler, Deceased, No. C8-67-355787,
Minn. Ramsey Co. Dist. Ct., Findings of Fact and
Order Allowing Accounts Terminating Trust A and
Discharging Trustee entered Sept. 3rd, 1997.
Estate of Helen A. Herschler, Deceased, No. PX95-400308, Minn. Wash. Co. Probate Ct., Order
Allowing Amened Final Account and Settling Estate
and Order of Distribution entered May 8, 1998.
In the Matter of Trust, A Under the Will of
Albert P. Herschler, Deceased, No. C8-67-355787,
Minn. Ramsey Co. Dist. Ct., Order entered Oct. 13,
2003.
In the Matter of Trust, A Under the Will of
Albert P. Herschler, Deceased, No. 62-TR-CV-17-60,
Minn. Ramsey Co. Dist. Ct., Judgment entered April
17th, 2018, Fact No. 15.
Kunzer v. Hiniker, et al., No. 20-CV-0882
(JRT/KMM) U.S. District Court District of Minnesota,
Report and Recommendation entered June 6th, 2020.
Kunzer v. Hiniker, et al., No. 20-CV-0882
(JRT/KMM) U.S. District Court District of Minnesota,
Order entered June 17, 2020.

vii

Kunzer v. Hiniker, et al., No. 20-2386 Steven M.
Colloton, Bobby E. Shepherd and Jonathan A. Kobes
“judgment filed sua sponte affirmed” Judgment
entered Nov 24, 2020.
Kunzer v. Hiniker, et al., No. 20-2386 U.S.
Court of Appeals for the Eighth Circuit Order entered
January 12, 2021.

TABLE OF CONTENTS

QUESTIONS PRESENTED

u

PARTIES TO THE PROCEEDING AND
RULE 29.6 CORPORATE
DISCLOSURE STATEMENT

v

LIST OF ALL PROCEEDINGS
LIST OF ALL PROCEEDINGS
DIRECTLY RELATED

vi

TABLE OF AUTHORITIES

IX

OPINIONS BELOW

1

viii

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLDED

1

STATEMENT OF THE CASE

2

I. Employees of the law firm Meier, Kennedy
and Quinn and U.S. Bank blatantly violate
the terms of The Last Will and Testament and
Codicil of Albert P. Herschler

A. U.S. Bank embezzles Trust B from the
legal heirs of the Herschler Estate.
1. On June 27, 1995, U.S. Bank distributes
Trust B to St. Paul’s Church and terminates
Trust B.
2. On June 26, 1995, Trust A can no longer
pass-through Trust B.
3. On September 3, 1997, U.S. Bank
terminates Trust A

ix

II. March 22, 1996, U.S. Bank becomes special
administrator of the Estate of Helen A. Herschler
in Washington County Probate Court

A. July 11, 1997, U.S. Bank agrees to a
settlement agreement in which Trust A
will go to St. Paul’s Church
1. In a May 8th, 1998 Order, U.S. Bank
admits that they did not honor the
settlement agreement and kept the
assets of Trust A
III. July 14th, 2003, Petitioner files a petition
for a resulting trust in Ramsey County
District Court

A. October 10th, 2003, U.S. Bank has an
ex parte hearing and lies too the
court that they distributed all
assets of Trust A
1. October 13th, 2003, Petitioner and
legal heirs are denied access
to the court
2. U.S. Bank employees continue
investing assets from Trust A

IV. April 6th, 2020, Petitioner files a RICO
- complaint in the United States District
Court District of Minnesota
A. Magistrate Judge Menendez erred in
her Report and Recommendation
that U.S. Bank, as trustee,
distributed all assets of the trust
1. Judge Menendez used judgments
and orders that clearly lacked
personal and subject matter
jurisdiction and are null and void

2. Judge Menendez erred in denying
Petitioner’s Motion to Vacate the
Ramsey County District Court
ex parte October 13, 2003 Order
as moot

3. Without personal and subject matter
jurisdiction Judge Tunheim dismissed
Petitioner’s complaint as frivolous
REASONS FOR GRANTING THE WRIT

19

I. The Lower Courts Decisions are Null and
Void for Lack of Jurisdiction
xi

20

A. Minnesota Federal Court Lacks
Personal and Subject Matter
Jurisdiction

21

1. Federal Judges Violate Code of
Conduct for United States Judges

22

2. No Evidence Filed that U.S. Bank
Distributed the Assets of Trust A

24

3. Magistrate Judge Uses Judgment
that was Procured by Fraud

24

II. This Court Should Hold the Minnesota State
'and Federal Court Judgments and Orders
Null and Void and Allow Petitioner Due
Process and Equal Protection

CONCLUSION

26

26

Appendix A: Codicil to Last Will and Testament of
Albert P. Herschler (Jan. 16, 1961).....la

xii

Appendix B: Last Will and Testament of Albert P.
Herschler (April 5th, 1960)................. 3a

Appendix C: Ramsey County District Court Order
Terminating Trust B (Jun 27th, 1995) ..5a

Appendix D: Washington County Probate Court
Settlement Agreement (Jul 21, 1997) ..7a

Appendix E: Ramsey County District Court Order
Terminating Trust A (Sept. 3, 1997) ...9a

Appendix F: Wash. Co. Probate Ct. Petition to
Allow Final Account (Feb 10, 1998) ...11a

Appendix G: Wash. Co. Probate Ct. Order
Allowing Amended Final
Account (May 8, 1998).........

14a

Appendix H: Ramsey County District Court Order
Denying Legal Heirs Access to the
Court (Oct 13, 2003)........................... 16a

xiii

Appendix I: Ramsey County District Court
Judgment, U.S. Bank Continues to
18a

lie to the Court (Dec 27,2017)........

Appendix J: Ramsey County District Court Order,
U.S. Bank lies to the Court Again
(April 17, 2018).................................. 20a

Appendix K: United States Dist. Ct. Report and
Recommendation (Jun 3, 2020)....

22a

Appendix L: United States Dist. Ct. Order
(Jun 17, 2020)........................

24a

Appendix M: United States Court of Appeals
for the Eighth Circuit Judgment
(Nov. 24, 2020)............................

26a

Appendix N: United States Ct. of Appeals
for the Eighth Circuit Order
(Jan. 12, 2021)......................

xiv

28a

Appendix O: Constitutional and Statutory
Provisions Involved................

30a

TABLE OF AUTHORITIES
Supreme Court Cases
Scheuer v. Rhodes, 416 U.S. 232, 236 (1974)

11

The State of Rhode Island v. The State of
Massachusetts, 37 U.S. (12 Pet.) 657 (1838)

20

Williamson v. Berry, 8 How. 945, 542 12 L.Ed.
1170, 1189 (1850)

25, 26

Cases
Accord Caribbean Broad. Sys., 148 F.3d at 1086

12

Accord Seville Indus. Mach. Corp. v. Southmost
Mach. Corp., 742 F.2d 786, 790 (3d Cir. 1984)

13

Accord Sinclair, 711 F.2d at 293

12

Amphastar Pharm. Inc. v. Aventis Pharma SA, 856
F.3d 696, 703 n.9 (9th Cir. 2017)
15
Axiom Foods, Inc. v. Acerchem Inti, Inc., 874 F.3d
1064, 1067 (9th Cir. 2017)

14

Brown v. Roe, 279 F.3d 742, 744 (9th Cir. 2002)
(habeas)

11

Caribbean Broad. Sys., 148 F.3d at 1086

13

XV

Conley v. Gibson, 355 U.S. 41, 47 (1957)

12

Curry v. Yelp Inc., 875 F.3d 1219, 1224
(9th Cir. 2017)

15

Davis v. Sherer, 468 U.S. 183, 191 (1984)

11

Dow Chemical Co. v. Calderon, 422 F.3d 827, 830
(9th Cir. 2005)

15

Export Group v. Reef Indus., Inc.,
54 F.3d 1466, 1469 (9th Cir. 1995)

16

Fid. Nat. Fin., v. Friedman, 803 F.3d. 999, 1001
(9th Cir. 2015)

16

Gingery v. City of Glendale, 831 F.3d 1222, 1226
(9th Cir. 2016)

15

Harris, 127 F.3d at 1123

11

Hobbs v. U.S. Office of Personnel Management,
485 F.Supp. 456 (M.D. Fla. 1980).

21

In re; Gruntz, 202 F.3d 1074, 1079 (9* Cir. 2000)

18

InKougasian v. TMSL, Inc., 359 F.3d 1136, 1139
(9th Cir. 2004)

17

James v. Draper, (In re. Lake), 202 B.R.
754, 758 (B.A.P. 9* Cir. 1996)

17

xvi

Kalb v. Fuerstein, 308 U.S. 433, 438-40 (1940)

18

Klugh v. U.S., 620 F.Supp. 892 (D.S.C. 1985)

21

Lipton v. Pathogenesis Corp., 284 F.3d 1027, 1039
(9th Cir. 2002)

15

Menken v. Emm, 503 F.3d 1050, 1056
(9th Cir. 2007)

14

Mera v. City of Glendale, Cal., 137 S. Ct. 1377
(2017)

15

Micomonaco v. Washington, 45 F.3d 316, 322
(9th Cir. 1995)

11

Neitzke v. Williams, 490 U.S. 319, 327 (1989)

11

Papasan v. Allain, 478 U.S. 265, 283 (1986)

11

Plyer v. Love, 129 F.3d 728, 723 (4* Cir. 1997)

18

Retail Clerks Union Joint Pension Trust v.
Freedom Food Ctr., Inc., 938 F.2d 136, 137

(9th Cir. 1991)

16

Salve Regina College v. Russell”, 499 U.S. 225,
238 (1991)

16

xvii

Shear v. National Rifle Ass’n of America,
606 F.2d 1251, 1253 (D.C. Cir. 1979)

11

Schnabel v. Lui, 302 F.3d 1023, 1029
(9th Cir. 2002)

15

Schwarzenegger v. Fred Martin Motor Co.,
374 F.3d 797, 800 (9th Cir. 2004)

15

Sun Valley Foods Co. v. Detroit Marine Terminals,
17
Inc., 801 F.2d 186, 189 (6th Cir. 1985)
United States v. Private Sanitation Indus. Ass’n,
793 F. Supp. 1114, 1124 (E.D.N.Y. 1992)

12

United States v. $277,000 U.S. Currency, 69 F.3d
1491, 1493 (9th Cir. 1995)

16

Ventress v. Japan Airlines, 603 F.3d 676, 680
(9th Cir. 2020)

15

Wells v. United States, 851 F.2d 1471, 1473
(D.C. Cir. 1988)

13

Wildman v. Johnson, 261 F.3d 832, 836
(9th Cir. 2001) (habeas)

11

Wood v. Orange County, 715 F.2d 1543, 1547
(11th Cir. 1983), cert. Denied, 467 U.S. 1210,
104 S. Ct. 2398, L.Ed. 2d. 355 (1984)

17

xviii

Young v. Pollock Eng’g Grp., Inc., 428 F.3d 786,
788 (8th Cir.2005)
Statutes:
U.S.C.A. Const. Amend. 1
U.S.C.A. Const. Amend 5
U.S.C.A. Const. Amend 14
RICO 18 U.S.C. 2
18 U.S.C. 242
RICO 18 U.S.C. 656
18 U.S.C. 1001(a)(l)(2)(3)
RICO 18 U.S.C. 1341
RICO 18 U.S.C. 1342
RICO 18 U.S.C. 1956(a)(l)(B)(i)
RICO 18 U.S.C. 1961(1)(4)(5)
RICO 18 U.S.C. 1962(a)(c)
RICO 18 U.S.C. 1964(a)(c)
28 U.S.C. 1254(1)
Minn. Stat. 501C.0801
Minn. Stat. 501C.0817
Minn. Stat. 501C.1005(c)
Minn. Stat. 524.2-103(5)
Uniform Probate Code 524.3-1102(1)
RICO Minn. Stat. 609.05 Subd. 1,
Subd.2
RICO Minn. Stat. 609.52 Subd. 1. (1),
Subd. 2(a)(l)(2)(3)(4)
RICO Minn. Stat. 609.83(2)
RICO Minn. Stat. 609.903
Subd. 1 (1)(3)
xix

16

1, 9, 26
21
2, 20, 26
10
20, 26
6
22
9, 18
8
5
18
iv, 6, 18
18
1
4
6
6
3
8
6, 8, 10, 24
6, 8, 10, 24
9
iv, 6, 8, 10, 24

Other Authorities
Codicil of Albert P. Herschler’s Last Will
Last Will and Testament of Albert P. Herschler
Fed Rules of Civ. Proc. Rule 4
Fed. Rules of Civ. Proc. Rule 8
Fed. Rules of Civ. Proc. Rule 12(b)(6)
Fed. Rules of Civ. Proc. Rule 15(a)
Code of Conduct for United States Judge
Canon 2(B)
Canon 3(A)(4)
Canon 2(B)
Canon 3A (4)
Canon 3A (5)
Minnesota Code of Judicial Conduct
Rule 2.2
Rule 2,6

ii, 3
ii, 4
18
12
11. 13
15

22
23
23
23
23

7
7

17
Black’s Law Dictionary
14
Childress & Davis, supra note 4, 1.01, at 1-3
Edward H. Cooper, Civil Rule 52(a); Rationing & the
Resources of Appellate Review, 63 NOTRE DAME L.
14
REV. 645, 649 (1988)

xx

OPINIONS BELOW
The Eighth Circuit did not have an opinion and
acted on an order that lacked personal and subject
matter jurisdiction. (Pet.App. 26a.-27a.). 1
JURISDICTION
The United States Court of Appeals for the Eighth
Circuit entered its order on January 12, 2021,
Pet.App. 28a-29a. The Eighth Circuit Court of
Appeals has so far departed from the accepted and
usual course of judicial proceedings as to call for an
exercise of this Court’s supervisory power. This court
has jurisdiction under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The First Amendment to the United States
Constitution provides:
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom
of speech, or of the press; or the right of the
people peaceably to assemble, and to petition
the Government for a redress of grievances.

1 References to the attached Appendix are styled: “Pet.App.
___ a.” References to ECF filings in the district court are
preceded by “ECF.”
1

The Equal Protection and Due Process Clauses of
the Fourteenth Amendment to the United States
Constitution state:
No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
state deprive any person of life, liberty, or
property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
Pertinent provisions from the U.S. Code and
Minnesota Statutes are reprinted beginning at Pet.
App. 30a.
STATEMENT OF THE CASE
Under the direction of Albert P. Herschler, the law
firm of Meier, Kennedy & Quinn created and executed
the Last Will and Testament of Albert P. Herschler,
dated April 5th, 1960, and Codicil dated January 16th,
1961, which included Trust A and Trust B. In Ramsey
County, Minnesota, on April 5th, 1960, U.S. Bank,
[“f/k/a First Trust National Association”], became
Trustee of Trust A & Trust B. On the death of Albert
P. Herschler, Helen A. Herschler became beneficiary
of Trust A and B. In April of 1992, Lisa A. Hiniker,
employee of U.S. Bank, assumes administrative

2

responsibility of Trust A & B, and retains attorneys
from Meier, Kennedy & Quinn for the Trusts.
Helen A. Herschler passes away on November 14,
1994. The assets in Trust A on November 14, 1994
were approximately $1,135,998.00 and Trust B was
approximately $976,130.00.
I. Under the Codicil of Albert P. Herschler the
Last Survivors of Helen A. Herschler are the
Beneficiaries of Trust A & B.
The January 16th, 1961 Codicil of Albert P.
Herschler, states in FIRST (d) “This trust shall
terminate upon the death of the last survivor of my
said wife...” Pet.App. la. The above Codicil is
referring to Trust B. The last survivors of Mrs.
Herschler and legal beneficiaries of Trust B where
Audrey Heriot, Gary C. Kunzer, William P. Kunzer,
Richard A. Kunzer and Kenneth R. Kunzer.2
Pet.App. 11a-12a.
II. U.S. Bank and its Lawyers Violate the
Codicil of Albert P. Herschler
A.

On June 27th, 1995, U.S. Bank Illegally
Distributes Trust B to St Paul’s on the

2 Minn. Stat. 524.2-103 Share of Heirs Other Than Surviving
Spouse, (5) If there is no surviving descendant, parent,
grandparent, or descendant of a grandparent, to the next of kin
in equal degree...”
3

Hill Episcopal Church and Terminates
Trust B
1.

As of June 27th, 1995, Trust A Can
No Longer Pass-through Trust B

Pursuant to the Last Will and Testament of Albert
P. Herschler, Fifth (f) “The trust estate which my said
wife disclaims or any portion of the trust estate
remaining on the death of my said wife, which my said
wife shall have failed to dispose of in an exercise of the
power of appointment hereinbefore conferred upon her,
shall be added to and become part of ‘Trust B”.
Pet.App. 3a.
As of June 27, 1995, Trust A can no longer be
distributed in a manner specified in Trust B.3
On March 22, 1996, Lisa A. Hiniker is appointed
Special Administrator of the Estate of Helen A.
Herschler. On July 11, 1997, in Washington County
Probate Court, U.S. Bank agrees to a settlement
agreement in which the Bank will give Trust A to St.
Paul’s Church. The above settlement agreement was
filed on July 21, 1997, in Wash. Co. Probate Ct.
Pet.App. 5a.

3 Minn. Stat. 501C.0801 Duty to Administer Trust, “Upon
acceptance of a trusteeship, the trustee shall administer the
trust in good faith, in accordance with its terms and purposes
and the interest of the beneficiaries...”
4

U.S. Bank terminates Trust A on September 3,
1997, in Ramsey County District Court. Pet.App. 9a10a.
2. U.S. Bank Admits They Kept the
Assets of Trust A
On February 10, 1998, Lisa A. Hiniker and attorney
Charles M. Bichler petition Washington County
Probate Court to Allow “Final Account”, Distribute
Assets and Discharge Special Administrator. Pet.App.
lla-13a. Hiniker and Bichler admit under “penalty
for perjury”, that U.S. Bank did not honor the
settlement agreement that was approved by the
Washington County Probate Court on July 11, 1997.
Pet.App. 13a n.17. Hiniker and Bichler lie under
penalties for penury that a final account is filed in
Washington County Probate Court. Pet.App. 13a n.
18. On May 8th, 1998, Hiniker and Bichler attend a
petition hearing on an “Amended Final Account”.
Pet.App. 15a, n. Order 4. No final account of the
Estate of Helen A. Herschler is ever filed in
Washington County Probate Court. Pet.App. 15a
Order n. 4. In Violation of 18 U.S.C. 1956(a)(l)(B)(i),
Pet.App. 32a, only an amended final account is filed.
No proper receipt showing the distribution of the
remainder of Trust A to St Paul’s Church is filed in
Ramsey County, Minnesota. Pet.App. 10a, n. 6. U.S.
Bank terminated Trust A on September 3, 1997 and

5

admit they kept the assets of Trust A on May 8, 1998.4
Pet.App. 15a, Order no. 4. Pet.App. 31a, RICO 18
U.S.C. 656, Pet.App. 34a -35a, RICO MN Stat. 609.
903, 609.05, & 609.52.
U.S. Bank continues to invest assets of Trust A
across state lines.5 Pet.App. 33a, RICO 18 U.S.C.
1962(a), Pet.App. 34a-36a. Minn. RICO 609.
B. U.S. Bank Lies to the Court and Denies
Petitioner and Heirs Access to the Court
On July 14, 2003, Petitioner filed a “Petition by Heir
of Testator Seeking Declaration of Resulting Trust on
Failure of Express Testament Trust”, in Ramsey
County District Court. Petitioner’s petition was filed
within six years pursuant to Minn. Stat. 501C.1005,6
to make U.S. Bank account for the assets of Trust A.
4 Minn. Stat. 501C.0817 Distribution Upon Termination, (b)
“Upon the occurrence of an event terminating or partially
terminating a trust, the trustee shall proceed expeditiously to
distribute the trust property to the persons intitled to it...”
518 U.S.C. 1962(a) “It shall be unlawful for any person
who has received any income derived, directly or
indirectly, from a pattern of racketeering activity...in
which such person has participated as a principal within
the meaning of section 2, title 18, United States Code, to
use or invest, directly or indirectly, any part of such
income...”
Minn. Stat. 501C.1005 Limitation of Action Against Trustee, (c)
“If paragraph (a) does not apply, a judicial proceeding by a
beneficiary against a trustee must be commenced within six
years after the first to occur of: (3) the termination of the trust.”
6

6

On October 10th, 2003, U.S. Bank has ex parte
communications with Ramsey County District Court.
U.S. Bank violates the court approved settlement
agreement. Then uses the null and void July 11, 1997
Washington County Probate Court Order for
Judgment, to get the Ramsey County District Court
October 13, 2003 ex parte Order. The above Order has
denied Petitioner and legal heirs’ access to the court
and the right to be heard.7 U.S. Bank lied to the court
when they said in their findings of fact no. 5, “U.S.
Bank Trust has distributed all assets of Trust A as
ordered by this Court.” Pet.App. 18a, Fact n. 5. As of
today’s, date Petitioner’s Petition for a Resulting
Trust has yet to be heard.
There is [n]o documentation or evidence that U.S.
Bank distributed the assets of Trust A to St. Paul’s on
the Hill Episcopal Church. Since Trust B was
terminated on June 26, 1995, U.S. Bank is now
unable, and it is illegal for the bank to distribute

7 Minn. Code of Judicial Conduct Rule 2.2 Impartiality
and Fairness, A judge shall uphold and apply the law,
and shall perform all duties of judicial office fairly and
impartially.
Rule 2.6 Ensuring the Right to be Heard (A) A judge
shall accord to every person who has a legal interest in a
proceeding, or that person’s lawyer, the right to be heard
according to law.
7

Trust A to St. Paul’s Church without a valid
settlement agreement.8 MN Stat. 609.52.
As of 2015, St. Paul’s Church is no longer in
existence because of a lack of a congregation.
1. Petitioner Learns of Identity
Thief and Mail Fraud
In 2019, Petitioner discovered letters in which
Hiniker informed the Internal Revenue Service
[“IRS”], that Hiniker and Petitioner are Co-Executors
of the Estate of Helen A. Herschler. Petitioner was
[n]ever appointed the Executor of the Estate of Helen
A. Herschler in Washington County Probate Court.9
8 Uniform Probate Code 524.3-1102 Procedure for
Securing Court Approval of Compromise. The procedure
for securing court approval of a compromise is as follows:
(1) “The terms of the compromise shall be set forth in an
agreement in writing which shall be executed by all
competent persons and parents acting for any minor
child having beneficial interests or having claims which
will or may be affected by the compromise...”.
18 U.S.C. 1342 Fictitious name or address. “Whoever,
for the purpose of conducting, promoting, or carrying on
by means of the Postal Service, any scheme or device
mentioned in section 1341 of this title or any unlawful
business, uses or assumes, or requests to be addressed
by, any fictitious, false, or assumed title, name, or
address or name other than his own proper name, or
takes or receives from any post office or authorized
depository of mail matter, any letter, postal card,
package, or other mail matter addressed to any such
fictitious, false, or assumed title, name, or address, or
9

8

Defendants opened a P.O. Box 64713, in Saint Paul,
MN, 55164-0713 addressed to Helen A. Herschler
state, Kenneth R. Kunzer.10 Petitioner [n]ever opened
P.O. Box 64713, in St. Paul, Minnesota 55164-0713.11
Petitioner discovered in 2019, that Richard L. Ditto,
signed an Examining Officer’s Report Transmittal, in
which Kenneth R. Kunzer is named the Executor, and
there is an overassessment of $115,916.00 that
belongs to him. U.S. Bank and its employees are using
the United States Postal Service or wire to make false
representations to the IRS and hiding the assets that
belong to the legal heirs. The above acts utilized the
United States Postal Service and constitute mail
fraud to wit: on or about the dates indicated in the
exhibits J, K, L, and M in Petitioner’s RICO complaint
filed in Minnesota Federal Court, case No. 0:20-cv00882-JRT-KMM, in April of 2020. ECF Doc. 1. U.S.
Bank and their attorneys,’ employees and/or agents
on their behalf, aided and abetted by each other, used
the USPS in furtherance of the schemes to defraud
Petitioner and heirs of money and property and/or to
name other than his own proper name, shall be fined
under this title or imprisoned...”

10 Minn. Stat. 609.83 Falsely Impersonating Another. (2) by
falsely impersonating another with the intent to defraud the
other...”
11 18 U.S.C. 1341 Frauds and swindles. Whoever, having devised
or intending to devise any scheme or artifice to defraud, or for
obtaining money or property by means of false or fraudulent
pretenses, representations...”
9

unjustly enrich defendants through monies converted
from third parties on the false or otherwise
misleading information in violation of 18 U.S.C. 1341,
and 18 U.S.C. 2.12 MN RICO 609.52 Subd. 2 (a)(1).
C. Minnesota Federal Court Dismisses
Petitioner’s RICO Complaint as Frivolous
Without a valid Washington County Probate Court
settlement agreement, that was confirmed and
approved on July 11, 1997, all other State and Federal
Court orders and judgments are themselves null and
void for lack of personal and subject matter
jurisdiction. Pet.App. 15a, n. 7.
Petitioner’s Federal case Kunzer v. Hiniker case No.
0:20-cv-00882-JRT-KMM, raises question of fact:
When Judge Menendez ruled in her report and
recommendation that U.S. Bank, “as trustee,
distributed all assets of the trust.” Sees In the Matter
of Trust A Under the Will of Albert P. Herschler, No.
62-TR-CV-17-60 (Minn. Dist. Ct. Apr. 17, 2018), was
she correct on relying on the State Court judgment as
being valid, when Petitioner’s verified complaint and
objection prove otherwise? ECF Doc 1. Pet.App. 16a,
Order n. 2. (Does not say U.S. Bank distributed

Trust A).

12 18 U.S.C. 2 Principle (b) “Whoever willfully causes an act to be
done which if directly performed by him or another would be an
offense against the United States, is punishable as a principal.”
10

Judge Menendez’s report and recommendation has
no proposed finding of fact and is based on null and
void state court orders and judgments. Pet.App. 22a23a. A magistrate judge’s findings adopted by the
district court are also reviewed for clear error. See
Wildman v. Johnson, 261 F.3d 832, 836 (9th Cir. 2001)
(habeas). Judge Menendez has authority to get
certification of a legal issue in a state court, See
Micomonaco v. Washington, 45 F.3d 316, 322 (9th Cir.
1995), but refused to do so. A district court’s decision
regarding the scope of review of a magistrate judge’s
decision is reviewed by this court for an abuse of
discretion See Brown v. Roe, 279 F.3d 742, 744 (9th
Cir. 2002) (habeas).
Pursuant to Rule 12(b)(6), FED R. Civ. P., in
considering a motion to dismiss a complaint for
alleged failure to state a claim, the court must view
the factual allegations in the complaint in the fight
most favorable to the plaintiff, and those allegations
must be presumed to be true. Papasan v. Allain, 478
U.S. 265, 283 (1986). See also Neitzke v. Williams, 490
U.S. 319, 327 (1989) (“What Rule 12 (b)(6) does not
countenance are dismissals based on judge’s disbelief
of a complaint’s factual allegations”); Scheuer v.
Rhodes, 416 U.S. 232, 236 (1974), overruled on other
grounds by Davis v. Sherer, 468 U.S. 183, 191 (1984);
Harris, 127 F.3d at 1123; Shear v. National Rifle
Ass’n of America, 606 F.2d 1251, 1253 (D.C. Cir.
1979). As the Supreme Court stated in Scheuer, 416
U.S. at 236: “When a federal court reviews the
11

sufficiency of a complaint, before the reception of any
evidence either by affidavit or admissions, its task is
necessarily a limited one. The issue is not whether a
plaintiff will ultimately prevail but whether the
claimant is entitled to offer evidence to support the
claims. Indeed, it may appear on the face of the
pleadings that a recovery is very remote and unlikely
but that is not the test. Moreover, it is well
established that, in passing on a motion to dismiss,
whether on the ground of lack of jurisdiction over the
subject matter or for failure to state a cause of action,
the allegations of the complaint should be construed
favorably to pleader.” Accord Caribbean Broad. Sys.,
148 F.3d at 1086. Indeed, the United States Court of
Appeals for the District of Columbia pointedly stated:
“The rule that the allegations of the complaint must
be construed liberally and most favorably to the
pleader is so well recognized that no authority need be
cited.”
Moreover, it is also well established “that the
Federal Rules of Civil Procedure do not require a
claimant to set out in detail the facts upon which he
bases his claim. To the contrary, all the Rules require
is ‘a short and plain statement of the claim’ that will
give the defendant fair notice of what the plaintiffs
claim is and the grounds upon which it rests.” Conley
v. Gibson, 355 U.S. 41m 47 (1957) (quoting Rule 8(a)
(2), Fed. R. Civ. P.) Accord Sinclair, 711 F.2d at 293
(“notice pleading is sufficient”). “[Ujnder Rule 8(a)
complaint need not state facts or ultimate facts or
12

facts sufficient to constitute a cause of action.” United
States v. Private Sanitation Indus. Ass’n, 793 F. Supp.
1114, 1124 (E.D.N.Y. 1992) (internal quotations and
citation deleted). Accord Seville Indus. Mach. Corp. v.
Southmost Mach. Corp., 742 F.2d 786, 790 (3d Cir.
1984). All that is required is that the complaint
“provides enough factual information to make clear
the substance of the claim.” Caribbean Broad. Sys.,
148 F.3d at 1086. Plaintiffs...need only ‘adduce a set of
facts’ supporting their legal claims to survive a motion
to dismiss” under Rule 12(b)(6). Wells v. United
States, 851 F.2d 1471, 1473 (D.C. Cir. 1988). For more
details and facts, the Court must rely upon “the
liberal opportunity for discovery and other pretrial
procedures established by the Rules of disclose more
precisely the basis of both claim and defense and to
define more narrowly the disputed facts and issues.”
Conley, 355 U.S. at 47-48. Accord Seville Indus. Mach.
Corp., 742 F.2d at 790.
1. Petitioner’s Complaint is Dismissed
Without Answers to Complaint or
Motions to Dismiss
Petitioner’s case raises matters of discretion and is
reviewable for “abuse of discretion”: Judge Menendez
refused to consider verified evidence presented before
her before making a ruling against Petitioner. When
Defendants no longer need to file answers to
complaints or motions to dismiss, and the Magistrate
Judge will act as a witness and recommend
13

dismissing the case for them. The case of, Kunzer v.
Hiniker, et al., Minn. Fed. Dist. Ct., File no. 20-cv0882, has established an entirely new and erroneous
legal principle. See, e.g. infra Section II.A.3. Of these
factors, perhaps the most “fundamental notion behind
a standard of review is that of defining the
relationship and power shared among judicial bodies.”
CHILDRESS & DAVIS, supra note 4, 1.01, at 1-3
(citing James D. Phillips, The Appellate Review
Function: Scope of Review, 47 LAW & CONTEMP.
PROBS. 1, 1 (1984)); Edward H. Cooper, Civil Rule
52(a); Rationing & Rationalizing the Resources of
Appellate Review, 63 NOTRE DAME L. REV. 645, 649
(1988) (concluding that standards of review serve a
vital institutional role in allocating the responsibility
and the power of decision between trial tribunals and
the courts of appeals).
2. Petitioner’s Complaint is Dismissed
Without Personal and Subject Matter
Jurisdiction
Without personal jurisdiction over Petitioner, and
without personal and subject matter jurisdiction over
Defendants, Judge Tunheim make a clear error of
judgment and exceeded the bounds of his authority
when he dismissed petitioner’s complaint with
prejudice. [N]one of the defendants are on file as being
served the summons and complaint. The district
court’s determination regarding personal jurisdiction
is reviewed de novo. See Axiom Foods, Inc. v.
14

Acerchem Inti, Inc., 874 F.3d 1064, 1067 (9th Cir.
2017); Menken v. Emm, 503 F.3d 1050, 1056 (9th Cir.
2007); Dow Chemical Co. v. Calderon, 422 F.3d 827,
830 (9th Cir. 2005); Schwarzenegger v. Fred Martin
Motor Co., 374 F.3d 797, 800 (9th Cir. 2004). Likewise,
the district court’s decision whether there is subject
matter jurisdiction is reviewed de novo. See Gingery v.
City of Glendale, 831 F.3d 1222, 1226 (9th Cir. 2016),
cert, denied sub nom. Mera v. City of Glendale, Cal.,
137 S. Ct. 1377 (2017); Schnabel v. Lui, 302 f.3d 1023,
1029 (9th Cir. 2002). The district court’s factual
findings on jurisdictional issues are reviewed for clear
error. See Amphastar Pharm. Inc. v. Aventis Pharma
SA, 856 F.3d 696, 703 n.9 (9th Cir. 2017); Schnabel,
302 F.3d at 1029.
3. Petitioner’s Complaint is Dismissed
Without the Opportunity to Amend His
Complaint
Judge Tunheim was clearly erroneous in his order
denying Petitioner an opportunity to amend his
complaint. The trial court’s decision denying
amendment to a complaint is reviewed for an abuse of
discretion. See Curry v. Yelp Inc., 875 F.3d 1219, 1224
(9th Cir. 2017); Ventress v. Japan Airlines, 603 F.3d
676, 680 (9th Cir. 2020). A party is entitled to amend
pleadings once “as a matter of course” at any time
before a responsive pleading is served. See Fed. R.
Civ. P. 15(a); Lipton v. Pathogenesis Corp., 284 F.3d
1027, 1039 (9th Cir. 2002).
15

4. Petitioner’s Motion to Vacate the
Ramsey County District Court Ex Parte
October 13, 2003 Order, is Dismissed as
Moot
Judges Menendez and Tunheim made a clear error
of judgment when they refused to vacate the Oct. 13,
2003 ex parte Order, In the Matter of Trust A Under
the Will of Albert P. Herschler, No. C8-67-355787
(Minn. Dist. Ct. 2003). Pet.App. 16a-17a. The
appellate court reviews de novo, the denial of a Rule
60(b)(4) motion to set aside an order as void, because
the question of the validity of a judgment or order is a
legal one. See Fid. Nat. Fin., v. Friedman, 803 F.3d.
999, 1001 (9th Cir. 2015); United States v. $277,000
U.S. Currency, 69 F.3d 1491, 1493 (9th Cir. 1995);
Export Group v. Reef Indus., Inc., 54 F.3d 1466, 1469
(9th Cir. 1995). Thus, whether a judgment or order is
void is a legal issue subject to de novo review. See
Retail Clerks Union Joint Pension Trust v. Freedom
Food Ctr., Inc., 938 F.2d 136, 137 (9th Cir. 1991).
Petitioner is requesting an independent
determination of the issues, giving no special weight
to the Federal court’s decision. “Salve Regina College
v. Russell”, 499 U.S. 225, 238 (1991). This court
reviews the order of dismissal de novo, applying the
same standards as the district court. See Young v.
Pollock Eng’g Grp., Inc., 428 F.3d 786, 788 (8‘h
Cir.2005). In theory, the appellate court decides the
issue in a de novo review, “[a] new; afresh; a second
time,” as if the trial tribunal had not before rendered
16

a decision on the issue. BLACK’S LAW DICTIONARY
435 (6th ed. 1990).
This court has subject matter jurisdiction to consider
the motion to vacate the Ramsey County District
Court ex parte October 13, 2003 Order. Pet.App. 16a17a. Although this claim tenders for review of a state
court order, this court is noticed: the state court order
is void as articulated infra. There are exceptions to
the Rooker/Fedlman doctrine when the state court
order was procured through fraud, deception,
accident or mistake, Sun Valley Foods Co. v.
Detroit Marine Terminals, Inc. 801 F.2d 186, 189(6th
Cir. 1985) (quoting Resolute Ins. Co. v. North Carolina
397 F.2d 586, 589 (4th Cir. 1968)). In Kougasian v.
TMSL, Inc., 359 F.3d 1136, 1139 (9th Cir. 2004) the
Ninth Circuit found that, although the plaintiff
sought relief from the state court judgment, she did
not complain of a legal wrong committed by the state
court. Instead, she alleged that wrongful acts of the
defendants were responsible for the court’s erroneous
judgment. Rooker /Feldman will not apply when the
party had no reasonable opportunity to raise his
federal claim in state proceedings, Wood v. Orange
County, 715 F.2d 1543, 1547 (11* Cir. 1983), cert.
Denied, 467 U.S. 1210, 104 S. Ct. 2398, 81 L. Ed. 2d
355 (1984). If the state court did not have subject
matter jurisdiction over the prior action, its orders
would be void ad initio and subject to attack
notwithstanding Rooker /Feldman, James v. Draper
(In re. Lake), 202 B.R. 754, 758 (B.A.P. 9th Cir. 1996).
17

A state court judgment is subject to collateral attack if
the state court lacked jurisdiction over the subject
matter or the parties, or the judgment was procured
through extrinsic fraud. Exception to the
Rooker/Feldman rule comes into play when the state
proceedings are considered a legal nullity, and thus
are void ab intio. See Kalb v. Fuerstein, 308 U.S. 433,
438-40 (1940). Where specific federal statute (such as
18 U.S.C. 1964(a) specifically authorizes review, the
Rooker/Feldman doctrine is inapplicable. See Plyer v.
Love, 129 F. 3d 728, 723 (4th Cir. 1997), Young v.
Murphy, 90 F.3d 1225, 1230 (7th Cir. 1992), and In re:
Gruntz,202 F.3d 1074, 1079 (9* Cir. 2000)).
III. The Decisions Below
A. District Court
The Petitioner invoked the district court’s federal
question jurisdiction by raising claims arising under
the Racketeering and Corrupt Practices Act, 18 U.S.C.
1961, 1962 (a), (c), 1964 (a), and 18 U.S.C. 1341. ECF
Doc. 1 (Complaint). None of the Defendants are on file
as being served the summons and complaint pursuant
to FRCP rule 4. Without personal jurisdiction over
Petitioner or personal and subject matter jurisdiction
over Defendants the court dismissed this case as
frivolous on June 17, 2020. Kunzer v. Hiniker, Civil
No. 20-0882 (JRT/KMM), (Minn. Fed. Dist. Ct. June
17, 2020). Pet.App. 24a-25a.

18

B. Eighth Circuit Court of Appeal
The Eighth Circuit refused to accept Petitioner’s
appeal brief. Pet.App. 26a-27a. Also, refused to hear
Petitioner’s petition for rehearing. Kunzer v. Hiniker
Case No. 20-2386, (U. S. Ct. of Appeals for the 8th,
Cir., Jan. 12, 2021). Pet.App. 28a-29a.
REASONS FOR GRANTING THE WRIT
This Court should address the Eighth Circuit’s
departure from the First Amendment of the United
States Constitution to petition the Government for
redress of grievances, and Fourteenth Amendment of
the United States Constitution of due process and
equal protection.
The panel decision conflicts with a decision of the
United States Supreme Court and consideration by
the Supreme Court is therefore necessary to secure
and maintain uniformity of the courts’ decisions.
First, Petitioner has demonstrated that after
terminating Trust B on June 26th, 1995, Trust A can
[n]o longer pass-through Trust B. On May 8, 1998, in
Washington County Probate Court, U.S. Bank
admitted they did not honor the court approved July
11, 1997 settlement agreement and [k]ept the assets
of Trust A. Pet.App. 15a, n. 7.

19

Second, Petitioner was denied a hearing and due
process and equal protection on October 13, 2003, in
Ramsey County District Court. Pet.App. 16a-17a.
Petitioner is entitled to a declaration that the October
13, 2003 Order is unconstitutional and is void. Under
the 14th Amendment and 18 U.S.C. 242.13 Petitioner is
entitled to a hearing to make U.S. Bank account for
the assets of Trust A.
I. The Lower Courts Decisions are Null and
Void for Lack of Jurisdiction
The below state and federal court orders and
judgments are themself null and void for lack of
personal and subject matter jurisdiction. As the
Supreme Court held in The State of Rhode Island v.
The State of Massachusetts, 37 U.S. (12 Pet.) 657
(1838). The Supreme Court is one of limited and
special original jurisdiction. Its action must be
confined to the particular cases, controversies, and
parties over which the Constitution and laws have
authorized it to act; any proceeding without the limits
prescribed is coram non judice, and its action a

13 18 U.S.C. 242 Deprivation of rights under color of law
“Whoever, under color of any law, statute, ordinance,
regulation, or custom, willfully subjects any person in
any State, Territory, Commonwealth, Possession, or
District to the deprivation of any rights, privileges, or
immunities secured or protected by the Constitution or
laws of the United States...shall be fined by this title or
imprisoned not more than one year...”
20

nullity. Once the question of jurisdiction is raised it
must be considered and decided before the court can
move one step further. Jurisdiction cannot be
assumed by a district court nor conferred by
agreement of parties. It is only when a Tennessee
judge has jurisdiction over both the parties and the
subject matter that he is immune from a suit for
money damages for deprivation of civil rights.
Smithson v. Ray, D.C.Tenn. 1976, 427 F.Supp. 11.
Judgment is a void judgment if court that rendered
judgment lacked jurisdiction of the subject matter, or
of the parties, or acted in a manner inconsistent with
due process, Fed. Rules Civ. Proc., Rule 60(b)(4), 28
U.S.C.A.; U.S.C.A. Const. Amend. 5 - Klugh v. U.S.,
620 F.Supp. 892 (D.S.C. 1985). A void judgment is one
which from the beginning was complete nullity and
without any legal effect, Hobbs u. U.S. Office of
Personnel Management, 485 F.Supp. 456 (M.D. Fla.
1980).
A. Minnesota Federal Court Lacks
Personal and Subject Matter
Jurisdiction
The appellate court overlooked or misunderstood the
fact that [n]one of the defendants are on file as being
served the summons and complaint pursuant to FRCP
rule 4, in the United States District Court District of
Minnesota, Case No. 20-cv-0882(JRT/KMM). The
above Court does not have personal or subject matter
jurisdiction over the defendants. The above Court
21

does not have personal jurisdiction over the plaintiff.
Therefore, Judge Tunheim’s June 17, 2020 Order is
null and void for lack of personal and subject matter
jurisdiction.
1. Federal Judges Violate Code of
Conduct for United States Judges
The appellate court overlooked or misunderstood the
fact that Judge Menendez is in violation of the Code of
Conduct for United States Judges Canon 2 (A) &(B).
Judge Menendez lacked discretion to proceed where
the record shows no personal or subject matter
jurisdiction over the defendants. Defendants never
filed an answer to Appellant’s verified complaint, or
motion to dismiss. Where there are no answers,
affidavits, depositions, admissions, or interrogatories,
the court is without factual basis to rule judicially in
favor for the defendants. Judge Menendez used no
Proposed Finding of Fact in her Report and
Recommendation. ECF Doc. 16. In the Code of
Conduct for United States Judges, Canon 2: B. “A
judge should not testify voluntarily as a character
witness”. Not only did Judge Menendez lie in her
Report that U.S. Bank has distributed the Trust
assets, she is testifying as a character witness. In
violation of: 18 U.S.C. 1001(a)(l)(2)(3).14 Pet.App. 22a23a.

22

The appellate court overlooked or misunderstood the
fact that Judge Tunheim has dismissed this case
without giving Appellant the right to be heard, and
without the personal and subject matter jurisdiction
of the defendants. Canon 3: A. (4) “A judge should
accord to every person who has a legal interest in a
proceeding, the full right to be heard according to
law.” Based on a May 5th, 2020 letter, Judge Tunheim
received from attorney Richard B. Allyn who is not a
defendant and does not have one client that is a
defendant in this case at this time, Judge Tunheim
dismissed this case with prejudice. In violation of
Canon 2: (B) Outside Influence, Canon 3A (4) "The
restriction on ex parte communications concerning the
proceeding includes communication from lawyers...”
Canon 3A (5) "a judge must demonstrate due regard
for the rights of the parties to be heard...”
The appellate court overlooked or misunderstood the
fact that Appellant’s case is a question of law and is
14 18 U.S.C. 1001 Statements or entries generally, (a)
Except as otherwise provided in this section, whoever, in
any matter within the jurisdiction of the executive,
legislative, or judicial branch of the Government of the
United States, knowingly and willfully-(l) “falsifies,
conceals, or covers up by any trick, scheme, or device a
material fact; (2) makes any materially false, fictitious,
or fraudulent statement or representation; or (3) makes
or uses any false writing or document knowing the same
to contain and materially false, fictitious, or fraudulent
statement or entry; shall be fined under this title,
imprisoned not more than 5 years...”
23

therefore a de novo issue. Federal Judges in the State
of Minnesota are not consistent in their rulings, which
raises the questions of can a Judge dismiss a case,
without personal jurisdiction over Petitioner and
without personal and subject matter jurisdiction over
the Defendants?
2. No Evidence Filed that U.S. Bank
Distributed the Assets of Trust A
The appellate court overlooked or misunderstood the
fact that when the Petitioner challenges the bank’s
standing in court, is the bank required to have a
[fjiled proper receipt showing the distribution of the
remainder of the Trust A property to Saint Paul’s
Church? ECF Doc. 1, pp. 13-14, *61-63. Also,
Petitioner asserts that U.S. Bank must provide a
[fjiled final account of the Herschler Estate, from
Washington County Probate Court, ECF Doc. 1, pp.
17, *79-80). RICO MN Stat. 609.52 Subd. 2 (a) (1)(2).
3. Magistrate Judge Uses Judgment that
was Procured by Fraud
The appellate court overlooked or misunderstood the
fact that Petitioner’s case raises question of fact:
When Judge Menendez ruled in her report and
recommendation that U.S. Bank, “as trustee,
distributed all assets of the trust.” See In the Matter of
Trust A Under the Will of Albert P. Herschler, No. 62TR-CV-17-60 (Minn. Dist. Ct. Apr. 17, 2018, Fact no.
24

12), was she correct in relying on the State Court
judgment as being valid? Appellant’s verified
complaint and objection prove otherwise, ECF Doc. 1,
pp. 20, *98-99. See In the Matter of Trust A Under the
Will of Albert P. Herschler, Deceased, C.A. No. C8-67355787 (Ramsey County), Order, at *2 (October 13,
2003). Pet.App. 16a. The October 13, 2003 Order *2
says, “Kenneth R. Kunzer’s Petition by Heir of
Testator Seeking Declaration of Resulting Trust on
Failure of Express Testamentary Trust is hereby
dismissed with prejudice.” It does [n]ot say U.S. Bank,
“as trustee, distributed all assets of the trust”. “...
whenever the right to property is claimed to have
been changed under a judgment or decree by a court,
and it is set up as a defense in another court, the
jurisdiction of the former may be inquired into. The
rule is, that where a limited tribunal takes upon
itself to exercise a jurisdiction which does not belong
to it, its decision amounts to nothing, and does not
create a necessity for an appeal. Attorney-General v.
Lord Hotham, Turn. & Russ. 219.” Williamson v.
Berry, 8 How. 945, 542 12 L.Ed. 1170, 1189 (1850),
Supreme Court Case.
The appellate court overlooked or misunderstood the
fact that Judge Menendez’s report and
recommendation has no proposed finding of fact and is
based on null and void State Court orders and
judgments, (ECF Doc. 1, pp. 16, *75-80). A magistrate
judge’s findings adopted by the district court are also

25

reviewed for clear error. See certification Wildman v.
Johnson, 261 F.3d 832, 836 (9th Cir. 2001) (habeas).
II. This Court Should Hold the Minnesota State
and Federal Court Judgments and Orders
Null and Void and Allow Petitioner Due
Process and Equal Protection
The United States Eighth Circuit Court of Appeals
has entered a decision in conflict with the decision of
the United States Supreme court on the same
important matter. See, Williamson v. Berry, 8 How.
945, 542 12 L.Ed. 1170, 1189 (1850).
Petitioner seeks a remedy specifically authorized by
18 U.S.C. 242 and U.S. Const, amend. I and XIV.
Pet.App 30a.-36a.Const. and Stat. Provisions Involved.
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,

,

Kenneth R. Kunzer, pro se
9350 Lake Road
Woodbury, Minn. 55125
(651) 366-1369
Kenk2764@msn.com
April 7th, 2021

26

